USDOJ: Texas Resident Sentenced to 15 Months in Prison for Scheme to Defraud the U.S. Export-import Bank
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASETuesday, June 5, 2012
Texas Resident Sentenced to 15 Months in Prison for Scheme to Defraud the U.S. Export-import Bank
WASHINGTON – A Fabens, Texas, resident was sentenced today to 15 months in prison for his role in a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of more than $690,624.
The sentence was announced by Assistant Attorney General Lanny A. Breuer of the Justice Department’s Criminal Division; U.S. Attorney Robert Pitman of the Western District of Texas; Osvaldo L. Gratacos, Inspector General of the Ex-Im Bank; and Acting Special Agent in Charge Dennis A. Ulrich of U.S. Immigration and Customs Enforcement’s Homeland Security Investigations (ICE-HSI) in El Paso, Texas.
Hector Cuevas, 42, was also sentenced by Judge Kathleen Cardone in U.S. District Court in El Paso to three years of supervised release and was ordered to pay $553,148 in restitution and $690,624 in forfeiture.  Cuevas pleaded guilty on Oct. 13, 2011, to conspiracy to commit wire fraud, wire fraud and money laundering conspiracy.  Cuevas admitted that he participated in a scheme to defraud the Ex-Im Bank of more than $690,624.
According to court documents, Cuevas was the owner of CT Implement Inc., a farm equipment sales company in Fabens that purported to be in the business of exporting U.S. agricultural equipment to Mexico.  During his plea hearing, Cuevas admitted that he helped others prepare and submit false applications, financial records and export documents to two lending banks to assist co-conspirators in Mexico in obtaining two Ex-Im insured loans purportedly for the purchase of equipment from Cuevas’ company.  Once the loans were approved, Cuevas admitted that he acted as a money launderer by illegally transferring Ex-Im Bank insured proceeds to both borrowers and others in Mexico.  Both loans defaulted and caused Ex-Im Bank to pay claims totaling $583,430 to the lending banks.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by filling gaps in private export financing.  Ex-Im Bank provides a variety of financing mechanisms to help foreign buyers purchase U.S. goods and services.
The case is being prosecuted by Trial Attorneys Patrick Donley and William Bowne of the Criminal Division’s Fraud Section and Assistant U.S. Attorney Steven Spitzer of the Western District of Texas, El Paso Office.  The case was investigated by the Ex-Im Bank Office of Inspector General and ICE-HSI El Paso.  The Financial Crimes Enforcement Network (FinCEN) also provided valuable assistance and financial analysis in this investigation.
12-717Criminal Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
Plain Writing
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
NEWS
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT